                                      Offfice off Inspec
                                                       ctor Ge
                                                             eneral
                                     Corrporatioon for N
                                                       Nationa
                                                             al and
                                               C
                                               Community Se  ervice




            AGREED-UPOON PROCEDU  URES FOR
       CORPOR
            RATION FOR NATIONAL A AND COMMUUNITY
             SERVICE GRANTS
                      R     AWAR  RDED TO
      ALABAMAA GOVERNOR’S OFFICE OF FAITH-BBASED
               AND COMM
                      MUNITY INITIA
                                  ATIVES

                      OIG REPORT 11
                                  1-18




                          Prepared by:

                   Clifton Gunderson
                           G            L LP
               11
                1710 Beltsviille Drive, Su
                                         uite 300
                   Calverto on, MD 2070  05




Thiss report was issued to Corpporation mana agement on June 29, 2011. Under the law  ws
andd regulationss governing audit follow--up, the Corrporation is to make fin        nal
man nagement dec cisions on thee report’s find
                                             dings and rec
                                                         commendation ns no later th
                                                                                   han
Deccember 29, 2011,
                  2     and complete
                              c           its corrective a
                                                         actions by JJune 29, 201    12.
Connsequently, th
                he reported fin
                              ndings do nott necessarily represent the
                                                                     e final resolutiion
of the issues presented.
                                         June 29, 2011

TO:            John Gomperts
               Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Stuart Axenfeld /s/
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 11-18, Agreed-Upon Procedures for Corporation for National and
               Community Service Grants Awarded to Alabama Governor’s Office of Faith-
               Based and Community Initiatives (GFBCI)

Attached is the final report for the above-noted agreed-upon procedures, which were performed
for the OIG under contract by the independent certified public accounting firm of Clifton
Gunderson LLP. The contract required Clifton Gunderson to conduct its procedures in
accordance with generally accepted government attestation standards.

Clifton Gunderson is responsible for the attached report, dated March 14, 2011, and
conclusions expressed therein. The agreed-upon procedures, unlike an audit in accordance
with U.S. generally accepted government auditing standards, was not intended to enable us to
express opinions on GFBCI’s Consolidated Schedule of Award Costs or the Schedules of
Award and Claimed Costs for individual awards, conclusions on the effectiveness of internal
controls, or compliance with laws, regulations and grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings in
this report is due by December 29, 2011. Notice of final action is due by June 29, 2012.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Ronald
Huritz, Audit Manager, at (202) 606-9355.

Attachment

cc:     Jon Mason, Executive Director, GFBCI
        Lisa Castaldo, Deputy Director, GFBCI
        William Anderson, Chief Financial Officer, CNCS
        Rocco Gaudio, Deputy Chief Financial Officer, Grants & Field Financial Management
        Claire Moreno, Audit Liaison, CNCS
        Jack Goldberg, Audit Resolution Specialist, CNCS
        Samantha Shaw, State Auditor, State of Alabama
        Denise Wu, Partner, Clifton Gunderson LLP


                   1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                      202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov

                        Senior Corps  AmeriCorps  Learn and Serve America
                          AGREED-UPON PROCEDURES FOR
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE GRANTS
                    AWARDED TO ALABAMA GOVERNOR’S OFFICE OF
                      FAITH- BASED AND COMMUNITY INITIATIVES



                                TABLE OF CONTENTS

                                                                                PAGE

EXECUTIVE SUMMARY                                                                 1

INDEPENDENT ACCOUNTANT’S REPORT                                                   5

SCHEDULE A – CONSOLIDATED SCHEDULE OF AWARD COSTS                                 6

SCHEDULE B – SCHEDULE OF AWARD AND CLAIMED COSTS:
             Alabama Governor’s Office of Faith-Based & Community Initiatives     7

SCHEDULE C – SCHEDULE OF AWARD AND CLAIMED COSTS: City of Selma                   9

SCHEDULE D – SCHEDULE OF AWARD AND CLAIMED COSTS:
             Birmingham City Schools                                             10

SCHEDULE E – SCHEDULE OF FINDINGS                                                11



APPENDIX A:     ALABAMA GOVERNOR’S OFFICE OF FAITH-BASED & COMMUNITY
                INITIATIVES’ RESPONSE TO DRAFT REPORT

APPENDIX B:     CORPORATION FOR NATIONAL AND COMMUNITY SERVICE’S
                RESPONSE TO DRAFT REPORT




                                           i
Executiv
       ve Summary
                y

The Office of Inspe   ector General (OIG), Corporation
                                           C            for National and Com  mmunity Seervice
(Corpora
       ation), contrracted with Clifton Gunderson LL   LP (auditorss) to perform agreed--upon
procedurres (AUP) on o grant cos           pliance with applicable regulations for Corpora
                                 st and comp                                             ation-
funded Federal
       F                                   e Alabama Governor’ss Office of Faith-Based
                  assistance provided to the                                            d and
Commun nity Initiatives
                      s (GFBCI).

Results

As a result of applying the proceedures, the auditors queestioned claaimed Federral-share cossts of
$2,573, match
        m                                                            725. A quesstioned cost is an
                costs of $26,372,, and educattion award ccosts of $4,7
alleged violation
        v         or non-complia
                     n          ance with graant terms annd/or provisions of lawss and regulaations
governing the expe  enditures of funds; or a finding tthat, at the   e time of te esting, adeqquate
documen ntation supporting a costt item was not
                                            n readily avvailable. Th he results of our agreed--upon
procedurres are summ marized in th
                                 he Consolidaated Schedu ule of Awardd Costs (Schhedule A).

GFBCI claimed total Federal cos sts of $1,6733,074 and to
                                                        otal match co
                                                                    osts of $1,8006,072 from April
1, 2008, through Ma arch 31, 2010, for grant numbers 06 6AFHAL001 and 06AFH    HAL002; and   d total
Federal costs
        c      of $80
                    09,927 and total
                                 t     match costs of $4990,560 from
                                                                   m July 1, 20008, through June
30, 20100, for grant numbers 08CAHAL001
                                0            1, 08CDHA AL001, and 08PTHAL00     01. GFBCI also
claimed Federal cos sts of $291,369 and ma              of $22,297 from June 1, 2009, thrrough
                                             atch costs o
June 30, 2010, for grrant numberr 09RFHAL0  001; and tota
                                                        al Federal co
                                                                    osts of $75,8
                                                                                835 from Occtober
28, 20077, through September 30, 2009, for grant n      number 07V  VSSAL005. Grant number
09ACHA AL001 was awarded,
                    a         butt no costs had been inccurred. Based on testin ng a judgmentally
selected sample of trransactions, the auditors
                                             s questioned
                                                        d claimed coosts as detaiiled below:

                                                                    Federal    Match     Education
                       Type of Questioned Costs                      Share     Share      Award
        Unssupported ma  atch costs                                  $     -   $25,018      $     -
        Reqquired numbe  er of hours not met on timeesheet                 -         -        4,725
        Inco
           omplete background investigation                            2,450     1,230            -
        Inco
           orrect mileagee rate used fo
                                      or travel reimb
                                                    bursement            123        39            -
        Mattch training co
                         ost incurred not
                                      n allocated properly
                                                    p                      -        85            -
                                                           Totals
                                                                s    $2,573    $26,372      $4,725

Participants who su  uccessfully complete th   heir AmeriCCorps term of service are eligible for
education awards and, in some     e cases, acc            est awards ffunded by tthe Corporation’s
                                               crued intere
National Service Trust. These award
                                 a      amoun nts are not fu
                                                           unded by the Corporatioon grants annd, as
a result, are not inclu
                      uded in the claimed gra ant costs. H
                                                         However, when the grant award is m   made,
the education awards become                   ns of the Corporation
                                   e obligation                        n’s Nationall Service TTrust.
Therefore            o our AUP and applying the same
         e, as part of                                    e criteria use
                                                                       ed for the g
                                                                                  grantee’s cla
                                                                                              aimed
costs, we
        w determined the effe     ect of our findings
                                               f        on AmeriCorp   ps memberss’ entitlemeent to
education and accrue  ed interest awards.
                                  a

11710 Beltsviille Drive, Suite 300
Calverton, MD
            D 20705-3106



                                                                                                      
tel: 301-931-2050
fax: 301-931-1710
                                                       1
www.clifton
          ncpa.com
We compared GFBCI’s inception-to-date drawdown amounts with the amounts reported in its
last Federal Financial Report (FFR) for the period tested and determined that the drawdowns
were reasonable.

We questioned a $4,725 education award because the member’s service hours did not meet the
1,700 hours required to be eligible for the award.

Details of the questioned costs, grant awards, non-compliance with grant provisions, and
applicable laws and regulations are presented in the Schedule of Findings (Schedule E) that
follows the results of our AUP, which are summarized below.

    A formalized cost allocation methodology of indirect costs claimed was not established
     and consistently implemented;

    Documentation was not available to support in-kind match costs;

    An incorrect mileage rate was used for travel reimbursements;

    Member contracts did not specify whether the term of service was half-time or full-time;

    There were inadequate procedures for conducting criminal background checks and
     searches of the National Sex Offender Public Registry;

    Timesheets do not reflect the required amount of service hours needed to earn an
     education award; and

    Federal Financial Reports were submitted late.

Background

The Corporation, under the authority of the National Community Service Trust Act of 1993 (as
amended), awards grants and cooperative agreements to State commissions, nonprofit entities,
and tribes and territories to assist in the creation of full- and part-time national and community
service positions. AmeriCorps members perform service activities to meet educational, human,
environmental and public safety needs. In return, eligible members may receive a living
allowance and post-service education benefits.

The Alabama Commission on National and Community Service (Commission) was originally
established by Gubernatorial Executive Order 10 on November 5, 1993. Also created under the
Order was a Governor's Office on National and Community Service. The Office assumed
functions previously assigned to the Governor's Office on Volunteerism by Executive Order
Number 12 on July 9, 1987. The responsibilities of the Commission were expanded and the
office was renamed the Governor's Office of Faith-Based and Community Initiatives through
Executive Order 21 on June 22, 2004.

GFBCI conducts statewide advocacy for community service, facilitates collaboration among
public and private individuals, organizations and communities, and provides training and
technical assistance for community programs. It coordinated the Alabama Citizen Corps
Program and serves as the lead agency for Annex G of the State Emergency Operations Plan
Volunteer and Donations Management. It also chairs the State Interagency Council on


                                                2
Homelessness and provides staff support to the Alabama Women's Commission. In addition to
AmeriCorps grants, GFBCI received the following Corporation grant funding:

      Administrative – Supports the revision and development of a comprehensive State plan,
       and assists in coordinating with partners to promote national service and volunteerism in
       Alabama to address unmet needs in underserved communities.

      Program Development and Training (PDAT) – Provides support for subgrantees and
       interested organizations to promote and expand service opportunities.

      Disability – Promotes and strengthens volunteer opportunities for people with disabilities.

GFBCI provided grants to twelve subgrantees during the period covered by this report. The
subgrantees, which use the funds to support their operations and provide member support,
maintain supporting documentation for the claimed costs and member files. Each subgrantee
has a reporting schedule for submitting its Periodic Expense Reports (PERs). Prior to May
2009, the subgrantees submitted monthly PERs into the Corporation’s Web-Based Reporting
System (WBRS). Thereafter, WBRS was terminated and replaced with a new system called the
My AmeriCorps Portal. GFBCI implemented the “My Service Log” (MSL) grant management
system in 2010. The subgrantees now submit PERS directly into MSL. GFBCI prepares the
aggregate FFR for the grant by accumulating the expenses reported in MSL by each
subgrantee and submitting a consolidated FFR through the Corporation’s online eGrants
system.

GFBCI monitors its subgrantees by reviewing member information and reimbursement requests,
performing site visits and desk reviews, and through regular communications.

GFBCI claimed Federal costs totaling $2,817,546 during the AUP period covered by this report.

Agreed-Upon Procedures Scope

We performed our procedures from September 10, 2010, through February 14, 2011. The
procedures covered the allowability, allocability and reasonableness of the financial transactions
reported for the following grants and periods:

                      Grants                           Periods
                   06AFHAL001             April 1, 2008 thru March 31, 2010
                   06AFHAL002             April 1, 2008 thru March 31, 2010
                   07VSSAL005          October 28, 2007 – September 30, 2009
                   08CAHAL001               July 1, 2008 – June 30, 2010
                   08CDHAL001              July 1, 2008 thru June 30, 2010
                   08PTHAL001              July 1, 2008 thru June 30, 2010
                   09ACHAL001           September 1, 2009 – March 31, 2010
                   09RFHAL001               June 1, 2009 – June 30, 2010

We also performed tests to determine compliance with certain grant terms and provisions. The
procedures were based on the OIG’s “Agreed-Upon Procedures for Corporation Awards to
Grantees (including Subgrantees), dated April 2010.” We focused on GFBCI and two of its
subgrantees: City of Selma and Birmingham City Schools. We tested the following: GFBCI


                                                3
transactions totaling $31,091; City of Selma transactions totaling $24,448; Birmingham City
Schools transactions totaling $75,128.

Exit Conference

We provided a draft report and discussed its contents with officials of the Corporation, GFBCI,
and applicable subgrantees at an exit conference on March 14, 2011. Excerpts of the grantee’s
response are summarized after each recommendation in the body of this report, and the
response in its entirety is included as Appendix A. The Corporation’s response is attached in
Appendix B.




                                              4
  ~Clifto
  ~ Gund~rson LLP
              Certified Public Accountants & Consultants




                                      INDEPENDENT ACCOUNTANT'S REPORT
                                     ON APPLYING AGREED-UPON PROCEDURES


  Office of Inspector General
  Corporation for National and Community Service


  We have performed the procedures, agreed to by the Corporation for National and Community
  Service (Corporation) Office of Inspector General (OIG), solely to assist you in evaluating
  certain information reported by Alabama Governor's Office of Faith-Based and Community
  Initiatives (GFBCI), in accordance with its Corporation grant terms and provisions, and
  applicable laws and regulations, for the period from October 28, 2007, through June 30, 2010.
  GFBCI and its subgrantees are responsible for the accuracy and completeness of the reported
  information. This agreed-upon procedure engagement was conducted in accordance with
  attestation standards established by the American Institute of Certified Public Accountants and
  Government Auditing Standards, issued by the Comptroller General of the United States. The
  sufficiency of the procedures is solely the responsibility of the OIG. Consequently, we make no
  representation regarding the sufficiency of the procedures either for the purpose(s) enumerated
  or for any other purpose.

  The results of our procedures are described in the Schedule of Findings (Schedule E).

  We were not engaged to, and did not conduct an examination, the objective of which would be
  the expression of an opinion on the reported information. Accordingly, we do not express such
  an opinion. Had we performed additional procedures, other matters might have come to our
  attention that would have been reported to you.

  This report is intended solely for the information and use of the OIG, the Corporation, GFBCI,
  and the U.S. Congress, and should not be used by anyone other than these specified parties.




  Calverton, Maryland
  March 14, 2011




11710 Beltsville Drive, Suile 300
Calverton, MD 20705-3106
tel: 301-931-2050                                                                   M.mbllr Qf

fax: 301-931-1710

www.cliftoncpa.com
                                                           5
                                                                                    III          International
                                                                                      Schedule A
                             Corporation for National and Community Service
                     Alabama Governor’s Office of Faith-Based and Community Initiatives
                                 Consolidated Schedule of Award Costs

                                                         Claimed                      Questioned Cost
                                         Approved         Federal        Federal          Match         Education
 Award No.             Program            Budget           Cost           Cost            Cost           Awards     Schedule

08CAHAL001                ADMIN          $ 814,238          500,270          $        -    $      85        $   -      B
08PTHAL001                PDAT              304,967         213,175                   -             -           -

08CDHAL001             Disability           175,112          96,482                   -             -           -

07VSSAL005                VISTA               48,780         43,176                   -             -           -



06AFHAL001          City of Selma                                                     -           39        4,725      C
                   Birmingham City
06AFHAL001             Schools                                                1,560            10,201           -      D
                     AmeriCorps-
06AFHAL001             Formula            3,408,002     $1,454,734          $1,560         $10,240         $4,725


                     AmeriCorps-
06AFHAL002            Formula             1,177,412         218,340                   -             -           -

                   Birmingham City
09ACHAL001             Schools                                                    890          16,047           -      D
                     AmeriCorps-
09ACHAL001           Competitive            974,784                 -            $890      $16,047              -



09RFHAL001          City of Selma                                                 123               -           -      C
                    AmeriCorps-
09RFHAL001        Formula Recovery          399,131         291,369              $123               -           -




                 Total1                  $7,302,426     $2,817,546          $2,573         $26,372         $4,725


      1
          Approved budget and claimed Federal cost amounts include all subgrantees.




                                                               6
                                                                           Schedule B
                   Schedule of Award and Claimed Costs
          For Period October 28, 2007, through September 30, 2009
                          GFBCI – 07VSSAL005
                                                                       Reference
Authorized Budget (Corporation Funds)                     $48,780       Note 1

Claimed Federal Costs                                     $43,176       Note 2


                    Schedule of Award and Claimed Costs
                For Period July 1, 2008, through June 30, 2010
                            GFBCI – 08CAHAL001

                                                                       Reference
Authorized Budget (Corporation Funds)                    $814,238       Note 1

Claimed Federal Costs                                    $500,270       Note 2

Authorized Match Budget                                  $296,589       Note 3

Claimed Match Costs                                      $490,560       Note 4

Questioned Match Costs:
  Cost not covered under approved budget           85                   Note 5
         Total Questioned Match Costs                            $85


                    Schedule of Award and Claimed Costs
                For Period July 1, 2008, through June 30, 2010
                            GFBCI – 08CDHAL001
                                                                       Reference
Authorized Budget (Corporation Funds)                    $175,112       Note 1

Claimed Federal Costs                                     $96,482       Note 2


                    Schedule of Award and Claimed Costs
                For Period July 1, 2008, through June 30, 2010
                            GFBCI – 08PTHAL001
                                                                       Reference
Authorized Budget (Corporation Funds)                    $304,967       Note 1

Claimed Federal Costs                                    $213,175       Note 2




                                           7
Notes

1. The authorized budget amount represents the funding to GFBCI under Grant Nos.
   07VSSAL005, 08CAHAL001, 08CDHAL001, and 08PTHAL001.

2. Claimed costs represent GFBCI’s reported Federal expenditures for the period October 28
   2007, through September 30, 2009, for Grant No. 07VSSAL005; and July 1, 2008, through
   June 30, 2010, for Grant Nos. 08CAHAL001, 08CDHAL001, and 08PTHAL001. No costs
   were questioned for Grant No.07VSSAL005.

3. The authorized match budget represents the funding to GFBCI under Grant No.
   08CAHAL001.

4. Claimed match costs represent GFBCI’s reported match expenditures for the period July 1,
   2008, through June 30, 2010, for Grant No. 08CAHAL001.

5. Questioned cost of $85 is based on training cost not being allocated properly for Grant No.
   08CAHAL001. (See Finding 1)




                                              8
                                                                                 Schedule C
                          Schedule of Award and Claimed Costs
                               City of Selma – 06AFHAL001
                      AUP Period April 1, 2008, through March 31, 2010

                                                                                Reference
   Authorized Budget (Federal Funds)                                $759,350     Note 1
   Authorized Match Budget                                          $512,258     Note 2

   Questioned Match Costs:
    Incorrect mileage rate used for travel reimbursement      39                 Note 3
               Total Questioned Match Costs                              $39

   Questioned Education Awards:
     Required number of hours not met on time sheets        4,725                Note 4
               Total Questioned Education Awards                      $4,725


                    City of Selma – 09RFHAL001-0003 (Recovery Grant)
                      AUP Period June 1, 2009, through June 30, 2010

                                                                                Reference
   Authorized Budget (Federal Funds)                                $151,906     Note 1

   Questioned Federal Costs:
     Incorrect mileage rate used for travel reimbursement    123                 Note 3
               Total Questioned Federal Costs                            $123


Notes

1. The authorized budget amount represents the funding to the City of Selma in accordance
   with the grant agreement.

2. The authorized match budget amount represents the funding to the City of Selma in
   accordance with the grant agreement.

3. Questioned $39 in match cost for Grant No. 06AFHAL001 and $123 in Federal costs for
   Grant No. 09RFHAL001 were due to the incorrect mileage rate used by the subgrantee for
   2010 travel reimbursements. (See Finding 3)

4. Questioned education award of $4,725 was due to one member not meeting the required
   numbers of hours necessary to be eligible for the award. (See Finding 6)




                                                 9
                                                                                   Schedule D
                         Schedule of Award and Claimed Costs
                        Birmingham City Schools – 06AFHAL001
                     AUP Period April 1, 2008, through March 31, 2010

                                                                             Reference
        Authorized Budget (Federal Funds)                         $251,925     Note 1

        Authorized Match Budget                                   $222,179     Note 2

        Questioned Federal Costs:
          Background investigation not completed        1,560                  Note 3
               Total Questioned Federal Costs                      $ 1,560

        Questioned Match Costs:
          Background investigation not completed          516                  Note 3
          Unsupported match costs                       9,685                  Note 4
               Total Questioned Match Costs                        $10,201

                        Birmingham City Schools – 09ACHAL001
                  AUP Period September 1, 2009, through March 31, 2010

                                                                             Reference
        Authorized Budget (Federal Funds)                         $465,961    Note 1

        Authorized Match Budget                                   $476,335     Note 2

        Questioned Federal Costs:
          Incomplete Background Investigation             890                  Note 3
               Total Questioned Federal Costs                         $890

        Questioned Match Costs:
          Incomplete background investigation             714                  Note 3
          Unsupported match costs                      15,333                  Note 4
               Total Questioned Match Costs                        $16,047

Notes
1. The authorized budget amounts represent the funding to Birmingham City Schools in
   accordance with the grant agreement.

2. The authorized match budget amounts represent the funding to Birmingham City Schools in
   accordance with the grant agreement.

3. Questioned costs of $1,560 in Federal costs and $516 in match costs for Grant No.
   06AFHAL001, and $890 in Federal costs and $714 in match costs for Grant No.
   09ACHAL001 were due to incomplete criminal background checks. (See Finding 5)

4. Questioned costs of $9,685 in match costs for Grant No. 06AFHAL001, and $15,333 in
   match costs for Grant No. 09ACHAL001 were due to lack of documentation to support the
   claimed costs. We could not determine if the subgrantee had additional match to satisfy the
   requirement as the subgrant is still active and the opportunity to obtain further match still
   exists. (See Finding 1)

                                                10
                                                                                        Schedule E
                                      Schedule of Findings


Finding 1 – A formalized cost allocation methodology of indirect costs claimed was not
established and consistently implemented. Documentation was not available to support
the allocation of indirect costs to each grant.

We selected a sample of 20 transactions each, reported during the period of July 1, 2008,
through June 30, 2010, for the PDAT, Disability and Administrative grants (plus 10 transactions
of the match contributions for the Administrative grant).

For 28 of the 70 transactions tested, GFBCI did not have documentation to support the
methodology for allocating indirect costs to the grants, and did not have an indirect cost rate
agreement in effect. Indirect costs were being allocated as direct costs. Management informed
us that the costs were allocated using a variety of bases, but we determined that, although the
costs we sampled were reasonable, the methodology used in the allocation process was
inconsistently applied. Without a reasonable and consistent methodology for allocating indirect
costs, management may overcharge or undercharge the grant funds. Because the costs were
not unreasonable, they are not being questioned. However, the absence of a documented cost
allocation methodology is being noted as a non-compliance issue.

Criteria:

OMB Circular A-87 Cost Principles for State, Local, and Indian Tribal Governments, Attachment
A General Principles for Determining Allowable Costs, Section E. Direct Costs, 3. Minor Items,
states, "Any direct cost of a minor amount may be treated as an indirect cost for reasons of
practicality where such accounting treatment for that item of cost is consistently applied to all
cost objectives." Section F. Indirect Costs, 1. General, states, "Indirect costs are those: (a)
incurred for a common or joint purpose benefiting more than one cost objective, and (b) not
readily assignable to the cost objectives specifically benefitted, without effort disproportionate to
the results achieved. The term "indirect costs," as used herein, applies to costs of this type
originating in the grantee department, as well as those incurred by other departments in
supplying goods, services, and facilities. To facilitate equitable distribution of indirect expenses
to the cost objectives served, it may be necessary to establish a number of pools of indirect
costs within a governmental unit department or in other agencies providing services to a
governmental unit department. Indirect cost pools should be distributed to benefitted cost
objectives on bases that will produce an equitable result in consideration of relative benefits
derived."

Recommendation:

1a.   We recommend that the Corporation work with GFBCI to formalize its process for
      allocating indirect costs to the grants, and verify that controls are in place to ensure that
      costs are reasonable, equitable, allocable and properly documented. Consideration
      should also be given to implementing an approved indirect cost rate for future grants.




                                                 11
GFBCI Response:

GFBCI concurred with the finding and will submit a cost allocation plan by no later than
September 1, 2011, for the Corporation funds received.

Auditors’ Comments:

The Corporation should review the cost allocation plan to ensure that the allocation of indirect
costs is reasonable, consistently applied, documented and supported.

Match Training Cost Incurred Was Not Properly Allocated.

For one of the 10 match transactions tested, the grantee incurred $340 for classes at Auburn
University at Montgomery for Participant Presentation, Conflict Management, and Emotional
Intelligence. The classes were taken by GFBCI’s accountant, who charges 75 percent of her
time to the grant as direct Federal costs.

Using the 75 percent allocation, we are questioning $85 in match costs charged to the
Administrative grant. This amount represents 25 percent of the total training cost incurred.

Criteria:

OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
Attachment A General Principles for Determining Allowable Costs, Section C. Basic Guidelines,
1. Factors affecting allowability of costs, states, “To be allowable under Federal awards, costs
must meet the following general criteria: a.) Be necessary and reasonable for proper and
efficient performance and administration of Federal awards."

Recommendation:

1b.   We recommend that the Corporation resolve the questioned $85 in match costs.

GFBCI Response:

GFBCI concurred with the finding.

Auditors’ Comments:

The Corporation should resolve the questioned match costs with GFBCI.

Finding 2 – Documentation was not available to support in-kind match costs.

We selected a sample of 10 claimed match costs for each program year (30 sample items in
total) for subgrantee Birmingham City Schools as part of our cost testing. After several
requests, the subgrantee was not able to provide us supporting documentation for 22 of the 30
sampled items. As a result, we are questioning $25,018 ($9,685 - Grant No. 06AFHAL001;
$15,333 - Grant No. 09ACHAL001) claimed for in-kind match costs under “Other Program
Operating Costs” in its PERs for the period reviewed.




                                              12
Criteria:

Per OMB Circular A-87 Cost Principles for State, Local, and Indian Tribal Governments,
Attachment A General Principles for Determining Allowable Costs, Section C. Basic Guidelines,
1. Factors affecting allowability of costs, states, "To be allowable under Federal awards, costs
must meet the following general criteria: j.) Be adequately documented."

Recommendations:

We recommend that the Corporation:

2a.   Resolve the $25,018 in questioned match costs due to a lack of supporting documentation.

2b.   Work with GFBCI to ensure that its subgrantees’ internal controls are strengthened to
      assure that claimed in-kind match costs are supported with proper documentation.

GFBCI Response:

GFBCI concurred with the finding and has required the subgrantee to submit supporting
documentation with its quarterly reimbursement request.

Auditors’ Comments:

The Corporation should resolve the questioned match costs and ensure that the corrective
action implemented by GFBCI is effective.

Finding 3 – City of Selma used an incorrect mileage rate for travel reimbursements
during 2010.

For 15 of the 80 transactions we tested for the City of Selma, the amount claimed for personal
owned vehicle (POV) mileage reimbursement during 2010 was higher than what was allowed
under the Federal POV mileage rate and IRS rules. As a result, Grant No. 06AFHAL001 was
overcharged $39 in match costs, and Grant No. 09RFHAL001 was overcharged $123 in Federal
costs.

City of Selma staff was unaware of the change that became effective in January 2010, when the
allowable reimbursement rate was reduced from 55 cents per mile to 50 cents per mile.

Criteria:

Internal Revenue Service Revenue Announcement IR-2009-111, dated December 3, 2009,
established the standard mileage reimbursement rate at 50 cents per mile beginning on January
1, 2010. The U.S. General Services Administration (GSA) adopted the rate change and
incorporated it into the Federal Travel Regulations.

Recommendations:

We recommend that the Corporation:

3a.   Resolve the questioned $123 in Federal costs for Grant No. 09RFHAL001 and $39 in
      match costs for Grant No. 06AFHAL001.

                                              13
3b.   Ensure that GFBCI strengthens the monitoring of its subgrantees to ensure that
      subgrantees are using the correct POV mileage reimbursement rate.

GFBCI Response:

GFBCI concurred with this finding.

Auditors’ Comments:

The Corporation should resolve the questioned costs and ensure that GFBCI has controls in
place to ensure that future mileage rate changes are promptly adjusted for subgrantee travel
reimbursements.

Finding 4 – Member contracts did not specify whether the term of service was half-time
or full-time.

For 31 of the 32 member files tested for City of Selma and Birmingham City Schools, the
member contract did not specify whether the member was half-time or full-time. The contract is
confusing because it contains information pertaining to both statuses.

We believe the member contract would be simplified and more effective if it specified whether
the member is a half-time or a full-time member. Confusion between the subgrantee and the
member would be avoided as to the service period, the total number of hours to be served, the
member living allowance, and the education award.

Criteria:

The 2007 AmeriCorps Special Provisions, Section IV.D. Training, Supervision and Support,
Paragraph 2. Member Contracts, states: “The grantee must require that members sign contracts
that, at a minimum, stipulate the following: a.) The minimum number of service hours and other
requirements (as developed by the Program) necessary to successfully complete the term of
service and to be eligible for the education award; …, and i.) Other requirements as established
by the Program.”

The 2009 AmeriCorps Special Provisions, Section IV.D. Supervision and Support, Paragraph 2.
Member Contracts, states: “The grantee must require that each member signs a contract that, at
a minimum, includes or refers to the following: a.) Member position description; b.) The
minimum number of service hours (as authorized by statute) and other requirements (as
developed by the grantee) necessary to successfully complete the term of service and to be
eligible for the education award;…, and i.) Other requirements as established by the grantee.”

Recommendation:

4.    We recommend that the Corporation ensure that GFBCI strengthens the monitoring of its
      subgrantees to ensure that member contracts address all significant issues, including type
      and term of service (specifying half-time or full-time) and financial benefits.




                                              14
GFBCI Response:

GFBCI concurred with this finding and will discontinue the use of contracts that do not
specifically state the term of service.

Auditors’ Comments:

The Corporation should ensure that the corrective action implemented by GFBCI is effective.

Finding 5 - Procedures were inadequate for conducting criminal background checks and
searches of the National Sex Offender Public Registry.

National Sex Offender Search was incomplete or improperly performed.

In 11 of the 20 City of Selma member files tested, the searches of the National Sex Offender
Public Registry (NSOPR) did not cover all 50 states. The reasons some U.S. States did not
provide their findings were due to “unexpected conditions,” “gateway time-outs” or the server
being “temporarily unavailable.” The search is considered incomplete if the results showed that
one or more U.S. States could not provide their findings.

By not conducting a complete National Sex Offender search to include all 50 states prior to
enrolling the member, subgrantees can place at risk their programs, GFBCI, the Corporation,
and the vulnerable persons they serve.

The subgrantee subsequently provided completed searches for all the members confirming that
they were eligible to serve. As a result, no costs were questioned.

Criteria:

The October 2009 45 C.F.R. 2540.203(b) states that “The National Sex Offender Public Web
site check must be conducted on an individual who is serving, or applies to serve, as a Foster
Grandparent, Senior Companion, or AmeriCorps State and National participant or grant-funded
staff with recurring access to children, persons age 60 or older, or individuals with disabilities on
or after November 23, 2007.” In addition, 45 C.F.R. 2540.201(a) states that “an individual is
ineligible to serve in a covered position if the individual is registered, or required to be
registered, on a State sex offender registry or the National Sex Offender Registry.”

The October 2007 and 2008 45 C.F.R. 2540.203(b) states that “The National Sex Offender
Public Registry (NSOPR) check must be conducted on an individual who is serving, or applies
to serve, in a covered position on or after November 23, 2007.” In addition, 45 C.F.R. 2540.201
states that “Any individual who is registered, or required to be registered, on a State sex
offender registry is deemed unsuitable for, and may not serve in, a position covered by
suitability criteria.”

Recommendation:

5a.   We recommend that the Corporation ensure that GFBCI strengthens the monitoring of its
      subgrantees to determine that subgrantees conduct NSOPR searches that include all 50
      states prior to the member starting service.



                                                 15
GFBCI and Corporation Responses:

GFBCI concurred with this finding and will require its subgrantees to repeat the process if any
state’s data are unavailable when the NSOPR check is conducted. However, the Corporation
takes exception to the auditor's assertion that the Corporation regulations require the NSOPR
check to include results from all 50 states. The Corporation indicated that the Federal
regulations require that the NSOPR check be conducted, but does not require that the system
connectivity be functioning for all 50 states when the NSOPR check is conducted.

Auditors’ Comments:

The Federal regulation states that a national NSOPR check must be conducted. If information
is missing from one or more states, then it is no longer a national check. The intent of the
regulation is to ensure that no registered sex offenders are allowed to serve as AmeriCorps
members. This can only be achieved by ensuring that the NSOPR check is complete. The risk
is that the applicant may be a registered sex offender in the state where the information was not
obtained when the check was performed. As a result, the subgrantees can place at risk their
programs, GFBCI, the Corporation, and the vulnerable persons they serve. The OIG’s position
is that the Corporation should ensure that the corrective action implemented by GFBCI is
effective to provide assurance that a complete NSOPR check, including all 50 states, is done for
each member prior to starting service.

Criminal background check and/or National Sex Offender Public Registry Search was
performed after member enrollment, or background investigation was not completed.

In seven of the 12 member files tested for the Birmingham City Schools, we found the criminal
background check was performed after the member’s start date. In addition, for three of the 12
Birmingham member files tested, there was no proof that a background investigation was
completed for the member. There was no documentation for one of the members, and the
subgrantee could not demonstrate that an authorized program representative accompanied the
member while the member was serving until the criminal background check was completed, as
required by Federal regulations.

In 28 of the 32 member files reviewed for City of Selma and Birmingham City Schools, we found
the NSOPR search was completed after the member’s start date.

Birmingham City Schools was unaware that the National Sex Offender Search was to be
completed before enrollment. The City of Selma performed the National Sex Offender search
shortly after the member’s start date due to a “grace period” that they thought was available to
gather documentation. However, the City of Selma could not provide any support for this “grace
period.”

By not conducting criminal background checks and NSOPR searches prior to enrolling its
members, a subgrantee places itself, GFBCI, the Corporation, and vulnerable populations being
served at risk. It also incurs the additional administrative burden to ensure that members with
pending criminal background checks are supervised at all times when interacting with
vulnerable populations. No education awards were disbursed because the members exited
early. We questioned $2,450 in Federal costs and $1,230 in match costs for member living
allowances.



                                               16
Criteria

The October 2009 45 C.F.R. 2540.203(b) states that “The National Sex Offender Public Web
site check must be conducted on an individual who is serving, or applies to serve, as a Foster
Grandparent, Senior Companion, or AmeriCorps State and National participant or grant-funded
staff with recurring access to children, persons age 60 or older, or individuals with disabilities on
or after November 23, 2007.” In addition, 45 C.F.R. 2540.201(a) states that “an individual is
ineligible to serve in a covered position if the individual is registered, or required to be
registered, on a State sex offender registry or the National Sex Offender Registry.”

The October 2007 and 2008 45 C.F.R. 2540.203(b) states, “The National Sex Offender Public
Registry (NSOPR) check must be conducted on an individual who is serving, or applies to
serve, in a covered position on or after November 23, 2007.” In addition, 45 C.F.R. 2540.201
states that “Any individual who is registered, or required to be registered, on a State sex
offender registry is deemed unsuitable for, and may not serve in, a position covered by
suitability criteria.”

The October 2009 45 C.F.R. 2540.203(a) states, “The State criminal registry check must be
conducted on Foster Grandparents, Senior Companions, and AmeriCorps State and National
participants and grant-funded staff with recurring access to children, persons age 60 or older, or
individuals with disabilities, who enroll in, or are hired by, your program after November 23,
2007.” 45 C.F.R. 2540.201(b) states that “an individual is ineligible to serve in a covered
position if the individual has been convicted of murder, as defined in section 1111 of title 18,
United States Code.”

The October 2007 and 2008 45 C.F.R. 2540.203(a) states, “The State criminal registry check
must be conducted on an individual who enrolls in, or is hired by, your program after November
23, 2007.”

The October 2007 – 2009 45 C.F.R. 2540.204(f) states, “Ensure that an individual, for whom the
results of a required State criminal registry check are pending, is not permitted to have access
to children, persons age 60 and older, or individuals with disabilities without being accompanied
by an authorized program representative who has previously been cleared for such access.”

Recommendations:

We recommend that the Corporation:

5b.   Resolve the questioned $1,560 in Federal costs and $516 in match costs for member
      living allowances for Grant No. 06AFHAL001, and $890 in Federal costs and $714 in
      match costs for Grant No. 09ACHAL001 for member living allowances.

5c.   Ensure that GFBCI strengthens the monitoring of its subgrantees to ensure that NSOPR
      and State criminal registry searches are conducted prior to members starting service. For
      members whose State criminal registry checks are pending, GFBCI should work with its
      subgrantees to ensure that a program official is present whenever such members interact
      with vulnerable populations and document that this supervision was established. In
      addition, GFBCI should ensure that findings from criminal background checks are
      considered, investigated, and the results should be documented to demonstrate
      compliance by its subgrantees.


                                                 17
GFBCI and Corporation Responses:

GFBCI indicated that Birmingham City School members receive weeks of pre-service training
where they are not with students. After the training is complete, the members are placed in
classrooms under the direct supervision of a teacher who, by State Department of Education
policy, must have a cleared background check. GFBCI stated that the members in question did
not serve while unsupervised. In addition, GFBCI’s current policy requires that the criminal
history check be initiated prior to enrollment. The Corporation stated that the two questioned
members without criminal background checks resigned from the program before the check was
completed. The Corporation indicated that the subgrantee had followed the regulation which
requires members to be supervised until the state checks are completed, and that the members
were supervised at all times and had no access to vulnerable populations.

Auditors’ Comments:

GFBCI should implement controls to ensure that supervisors are formally instructed to supervise
members with pending criminal background checks, at all times, when interacting with the
vulnerable population. In addition, the finding indicates that the subgrantee could not provide
documentation that an authorized program representative was instructed to accompany the
member while the member was serving until the criminal background check was completed.
The Corporation’s statement that the members had no access to vulnerable populations is
incorrect, because the members were working with children. The Corporation should resolve
the questioned costs and ensure that the corrective action implemented by GFBCI is effective.
In cases where the full amount questioned is not recovered, justification for a lesser recovery
amount should be documented.

Alternate background investigations were performed through the Board of Education
without prior written approval.

For 11 of the 12 Birmingham City Schools member files tested, an alternate background
investigation was performed through the Alabama Board of Education without prior written
approval from the Corporation. The subgrantee routinely performs its background investigations
through the Board of Education. Birmingham City Schools received a monitoring finding from
GFBCI informing the subgrantee that it needed approval in writing for the alternative search
protocol. Birmingham received approval on June 18, 2010, outside the scope of our AUP
period. We cite this matter as a non-compliance issue with the Federal regulation.

Criteria:

The October 2007, 2008, and 2009 45 C.F.R. 2540.206(c) states, "If you demonstrate that you
are prohibited or otherwise precluded under State law from complying with a Corporation
requirement relating to criminal history checks or that you can obtain substantially equivalent or
better information through an alternative process, the Corporation will consider approving an
alternative search protocol that you submit in writing to the Corporation’s Office of Grants
Management. The Office of Grants Management will review the alternative protocol to ensure
that it: (1) Verifies the identity of the individual; and (2) Includes a search of an alternative
criminal database that is sufficient to identify the existence, or absence of, criminal offenses."




                                               18
Recommendation:

5d.    We recommend that the Corporation ensure that GFBCI strengthens the monitoring of its
       subgrantees to verify that prior written approval is obtained from the Corporation before an
       alternate criminal background check protocol is implemented.

GFBCI Response:

GFBCI indicated that the practice of submitting the members’ criminal history checks through
the Board of Education performed by the Alabama Bureau of Investigation (ABI) has been a
standard practice for many years. The subgrantee will continue to utilize the standing program
procedures. GFBCI will ensure an alternate search protocol is approved if a subgrantee
decides not utilize the ABI for criminal history checks in the future.

Auditors’ Comments:

The Corporation should ensure that GFBCI revises its policies to obtain prior written approval
from the Corporation before an alternate criminal background check protocol is implemented.

Finding 6 – Timesheets do not reflect the required amount of service hours needed to
earn an education award.

For one of the 20 City of Selma member files tested, the timesheets in the member’s file did not
support the hours needed to meet the 1,700 hours required to receive an education award.
After our fieldwork ended, the City of Selma provided us with Member Daily Sign-In Rosters.
Members are required to sign-in and out each day at the site where they were serving, which
was also reviewed and signed by the site supervisor. For the member tested, the site
supervisor had signed the roster on February 15, 2008, but the member had additional sign-in
and out dates on the roster covering February 25 – 28, 2008, for an additional 12 hours that was
not signed by the supervisor. Given the lack of timesheets and the inadequate sign-in rosters
for these hours, the member had adequate support for only 1,692.5 hours of the 1,700 needed
for the education award.

The City of Selma believes that the member appears short on service hours because there may
be timesheets missing from the file.

By not maintaining adequate support for the hours claimed, the National Service Trust cannot
be sure that the member earned the education award. As a result, we are questioning the
$4,725 education award.

Criteria:

The 2007 AmeriCorps Special Provisions, Section IV.E, Terms of Service, Paragraph 1a.
Program Requirements, states: “Each Program must, at the start of the term of service,
establish the guidelines and definitions for the successful completion of the Program year,
ensuring that these Program requirements meet the Cooperation’s service hour requirements as
defined below:

      Full-Time Members. Members must serve at least 1,700 hours during a period of not
      less than nine months and not more than one year.”


                                                19
The 2007 AmeriCorps Special Provisions, Section IV.J., Post-Service Education Awards,
Paragraph 3, states: “In order to receive a full education award, a member must perform the
minimum hours of service as required by the Corporation and successfully complete the
program requirements as defined by the Program.”

The 2007 AmeriCorps Special Provisions, Section IV.C. Member Enrollment, Paragraph 2.
AmeriCorps Members, states: “The grantee must keep time and attendance records on all
AmeriCorps members in order to document their eligibility for in-service and post-service
benefits. Time and attendance records must be signed and dated both by the member and by
an individual with oversight responsibilities for the member.”

Recommendations:

We recommend that the Corporation:

6a.   Resolve the questioned $4,725 education award for Grant 06AFHAL0010001.

6b.   Ensure that GFBCI strengthens the monitoring of its subgrantees to determine that
      member timesheets support the service hours reported in eGrants.

GFBCI and Corporation Responses:

GFBCI concurred with this finding as the subgrantee was unable to provide other documents,
such as sign-in sheets, to support the member’s shortage of 7.5 hours. The Corporation
decided to hold the member harmless and disallow the pro rata amount of $21, representing the
portion of the education award that was already accessed by the member.

Auditors’ Comments:

The regulation states that a member must perform the minimum required hours of service in
order to receive a full education award. The Corporation should resolve the questioned
education award and ensure that the corrective action implemented by GFBCI is effective. In
the case where the full amount questioned is not recovered, justification for a lesser recovery
amount should be documented.

Finding 7 – Federal Financial Reports were submitted late.

Four of the 28 Federal Financial Reports (FFRs) selected for compliance testing were submitted
to the Corporation late, as shown below:

                                                         FFR             No.
                                        FFR End
                     Grant No.                        Submission        Days
                                          Date
                                                         Date           Late
                   08CAHAL001            12/31/09       2/3/09            3
                   08CDHAL001            12/31/09       2/3/09            3
                   08PTHAL001            12/31/09       2/3/09            3
                   07VSSAL005             9/30/09      1/22/10*           7
              *Extension granted until 1/15/2010




                                              20
Management indicated that the late filing of the FFRs was an administrative oversight. Failure
to submit FFRs timely could affect future funding for the grantee. We cite this as a non-
compliance issue.

Criteria:

The 2009 Provisions for State Administrative, Program Development and Training, and
Disability Placement Grants; Section D. Admin/PDAT/Disability Special Provisions, Paragraph
6. Reporting Requirements, a). Financial Reports, states, “The Grantee shall complete and
submit financial reports in eGrants (Financial Status Reports on menu tree) to report the status
of all funds. Grantees must submit timely cumulative financial reports in accordance with
Corporation guidelines according to the following schedule:”

                        Due Date               Reporting Period Covered
                        July 31                Start of grant through June 30
                        January 31             July 1 – December 31

The eGrants portal indicated that the FFR for grant number 07VSSAL005 for the period
October 26, 2008, through September 30, 2009, was due on October 30, 2009. It also stated
that an extension was provided, which amended the due date to January 15, 2010.

Recommendation:

7.   We recommend that the Corporation ensure that GFBCI submits its FFRs when they are
     due.

GFBCI Response:

GFBCI concurred with this finding.

Auditor’s Comments:

The Corporation should ensure that the corrective action implemented by GFBCI is effective.




                                              21
             APPENDIX A

    ALABAMA GOVERNOR'S OFFICE OF
FAITH-BASED AND COMMUNITY INITIATIVES

    RESPONSE TO THE DRAFT REPORT
ROBERT BENTLEY                                                          ONE   COMMERCE STREET. SUITE  620
GOVERNOR                                                                   MONTGOMERY. AL,\BAIvli\  36 I 04
                                                                                           (334) 954-7440
JON MASON                                                                            PAle: (334) 242-2885
DIRECTOR




                                      STATE OF ALABAMA
                 GOVERNOR'S OFFICE OF FAITH-BASED AND COMMUNITY INITIATIVES




    June 14,2011



    Mr. Stuart Axenfeld
    Assistant Inspector General for Audit
    Corporation for National and Community Service
    1201 New York Avenue, NW, Suite 830
    Washington, DC 20525


    Assistant Inspector General Axenfeld,

    Please find enclosed the Alabama Governor's Office of Faith-Based and Community
    Initiatives (GFBCI) response to the Office of Inspector General Draft Report for the
    Agreed-Upon Procedures for Corporation Grants Awarded to the Alabama GFBCI.

    Please do not hesitate to contact us if you have any additional questions concerning the
    audit response.

    Sincerely,




    Lisa Castaldo
    Deputy Director


    CC:     Jon Mason, GFBCI Director
            Claire Moreno, Corporation for National and Community Service
       Alabama Governor's Office of Faith-Based and Community Initiatives

Finding I
A formalized cost allocation methodology of indirect costs claimed was not established
and consistently implemented. Documentation was not available to support the allocation
of indirect costs to each grant.

Recommendation
We recommend that the Corporation
la. Work with GFBCI to formalize its process for allocating indirect costs to the grants,
and verify that controls are in place to ensure that costs are reasonable, equitable,
allocable and properly documented. Consideration should also be given to implementing
an approved indirect cost rate for future grants.

lb. Resolve the questioned $85 in match cost

GFBCI Response
la. The GFBCI will complete and submit a cost allocation plan, no later than September
1, 2011, for the CNCS funds received by the GFBCI. The GFBCI is still exploring the
feasibility of utilizing an indirect rate but may opt for the Corporation Fixed Percentage.
All 2012 CNCS grants submitted by the GFBCI will employ the newly adopted policy for
cost allocation. Currently, the GFBCI follows all State of Alabama Fiscal Policy and
Standard Accounting Procedures.

1 b. The GFBCI's current method of cost allocation justified the $85 charged toward the
Administrative grant towards the GFBCI Accountant's cost for participation in the
Certified Public Manager course for the State of Alabama. This cost was reasonable and
allowable. However, since there are no grantee funds applied to the grant for the GFBCI
Accountant's salary the GFBCI does not dispute the questioned cost of$85.

Finding 2
Documentation was not available to support in-kind match costs.

Recommendation
We recommend that the Corporation
2a. Resolve the $25,018 in questioned match costs due to a lack of supporting
documentation.
2b. Work with GFBCI to ensure that its sub-grantees internal controls are strengthened to
assure that claimed in-kind match cost are supported with proper documentation.


GFBCI Response
2a. The GFBCI received all of the outstanding match documents and they have been
submitted to the Corporation for further consideration. However, the documents were not
provided to the GFBCI by the sub-grantee during the time period that they could be
reviewed by the contracted audit firm. The documents were stored by the sub-grantee,
who is a large urban school system, off-site and this resulted in an extensive delay for the
records to be pulled.

2b. The sub-grantee has received formal notification of corrective action by the GFBCI.
Currently all sub-grantees, excluding this sub-grantee and one other program who have
longevity and a good record with the GFBCI, are required to submit monthly and or
quarterly reimbursement requests with support documents included for federal costs and
match costs. This sub-grantee had a demonstrated record and was exempted from this
requirement. They submitted a bi-annual reimbursement request and received desk audits
and fiscal site visits to verify support documentation. Due to the delay in the ability to
produce the requested documents during the audit period, the reimbursement schedule
and the submission of support documents have been changed to a mandatory quarterly
schedule.

Finding 3
City of Selma used an incorrect mileage rate for travel reimbursements during 2010.

Recommendations
We recommend that the Corporation
3a. Resolve the questioned $123 in Federal costs for Grant No. 09RFHALOOl and $39 in
match cost for Grant No. 06AFHALOOl

3b. Ensure the GFBCI strengthens the monitoring of its sub-grantees to ensure that sub-
grantees are using the correct POV mileage reimbursement rate.

GFBCI Response
3a. The City of Selma's mileage rate is .55 per mile. A Mileage Resolution and Mileage
Memo from the Selma City Council were included in the initial audit response. In
addition, a mileage rate of .55 per mile was submitted to the GFBCI and the Corporation
in the grant for the period tested. During the grant year, the mileage rate was reduced to
.50 cents per mile and the State of Alabama should not have reimbursed at the .55 cent
per mile rate. The GFBCI concurs with this finding.

3b. The GFBCI has an internal process for reviewing all reimbursement requests from
sub-grantees. This process has built in redundancy to reduce the rate of error. However,
in this instance the reimbursement to the sub-grantee at the incorrect mileage rate was an
error. The rate had changed mid-year from .55 cents per mile to .50 cents per mile and the
5 cent per mile difference was not adjusted by the GFBCI.

       Excerpt/rom tlte GFBCI AmeriCorps Policy ami Procedure lWalllw/:
       State Requirements (GFBCI) - Draw Downs
       Thefollowingforms and information should be included when submitting a draw down request if
       il is applicable to grant award:
       J.        Certification Cover Sheet
       2.        Field Voucher
       3.        Periodic Expense Report (PER)
       4.        Draw Calculations Sheet (when applicable)
       5.        Member Roster Report from the Portal

                                                2
       6.       General Ledger. General Journal, and/or Payroll Register(or the time period covered in
                the draw request
       7.       Support documentation/or all expenditures, i.e .. invoices. detailed receipts, travel
                reimbursement/arms. etc. (when applicable)
       8.       Quarterly FFR (Due by 10th a/appropriate month)
       9.       In-Kind Form (when applicable)
       Once the hard copies and supporting documentation (when applicable) are received. the draw
       request will have afinal review and be processed upon verification 0/ documentation submitted. If
       a problem or error occurs in the in/ormation submitted, payment will not be made until problem
       or error has been corrected. Sub-grantees are required to submilfinancial reimbursement
       requests based upon the schedule in the program contract, Attachment 1.

The GFBCI receives notification from the Alabama Department of Finance when the
federal mileage rate changes. All GFBCI staff members will receive a copy of the memo.

Finding 4
Member contracts did not specify whether the term of service was half-time or full-time

Recommendation
We recommend that the Corporation
4. Ensure that the GFBCI strengthens the monitoring of its sub-grantees to ensure that
member contracts address all significant issues, including type and term of service
(specifying half-time or full-time) and financial benefits.

GFBCI Response
4. The GFBCI utilizes a Risk Based Monitoring System which includes an annual on-site
Module C -Member File reviews, in addition to quarterly compliance reviews. All
monitoring tools are available at www.ServeAlabama.gov. The contracts in questions had
the option to circle either full time or part time on the contract. The objective was to have
one version of a member contract. However, by not circling the appropriate option the
contract did not indicate clearly the term of service.

As a corrective action, the GFBCI is disallowing the use of contracts that do not
specifically state the term of service. This will be reinforced at the mandatory annual
AmeriCorps Program Stmi-Up Training which occurs prior to the start of the new
program year. This is also be reviewed during the fall when all programs receive an on-
site Module C- Member File Review Site Visit.

Finding 5 (1)
Procedures were inadequate for conducting criminal background checks and searches of
the National Sex Offender Public Registry

Recommendation
We recommend that the Corporation
5a. Ensure that the GFBCI strengthens the monitoring of its sub-grantees to determine
that the sub-grantees conduct NSOPR searches that include all 50 states prior to the
member starting service



                                                  3
GFBCI Response
5a. The GFBCI had been checking each member file to ensure the completion of the
NSOPR check annually. However, the GFBCI has strengthened the guidance on the
NSOPR check to ensure that sub-grantees repeat the process if any of the state's data is
unavailable on the day the NSOPR check is conducted. As an immediate corrective
action, the GFBCI has sent out an email advising programs to review all NSOPR checks
that have been conducted to determine if any states were not available on the day of the
check. There have also been 2 quarterly Program Director trainings conducted since this
audit recommendation was originally made and the review of the NSOPR check was
included on both agendas.

Also, the GFBCI's AmeriCorps Policy Manual has been revised to include the emphasis
on what constitutes a completed NSOPR check. This will be reinforced at the mandatory
annual AmeriCorps Program Start-Up Training which occurs prior to the start of the new
program year. This is also reviewed on-site during the fall when all programs receive a
Module C- Member File Review Site Visit.

Finding 5 (2)
Criminal background check and/or National Sex Offender Public Registry search was
performed after member enrollment or background investigation was not completed.

Recommendation
We recommend that the Corporation
5b. Resolve the questioned $1,560 in Federal cost and $516 in match costs for member
living allowances for Grant No. 06AFHALOOl, and $890 in Federal costs and $714 in
match costs for Grant No. 09ACHALOOI for member living allowances.

5c. Ensure that the GFBCI strengthens the monitoring of its sub-grantees to ensure that
NSOPR and State criminal registry searches are conducted prior to members stalting
service. For members whose state criminal registry searches are pending, GFBCI should
work with its sub-grantees to ensure that a program official is present whenever such
members interact with vulnerable populations and document that this supervision was
established. In addition, GFBCI should ensure that findings from criminal background
checks are considered, investigated, and the results should be documented to demonstrate
compliance by its sub-grantees.

GFBCI Response
5b. The questioned cost are a result of stipends (living allowances) for members. The
sub-grantees have always been advised by the GFBCI that as an eligibility requirement
the NSOPR check must be completed prior to enrollment. However, guidance regarding
the timing of the initiation of the criminal history check has been changed since
becoming law in 2007 . Originally, the GFBCI advised that the criminal history check
should be conducted in a timely manner. Birmingham City School members receive
weeks of pre-service training where they are not with students and after the training is
complete they are placed in classrooms under the direct supervision of a teacher who by
State Department of Education policy must have a cleared background check. The


                                            4
member's in question did not serve unsupervised. Currently, Birmingham READS
AmeriCorps applicants must complete the background check and provide a copy of the
letter verifying they have initiated the background check prior to enrollment.

Currently, the GFBCl's policy and training practices dictate that the criminal history
check must initiated prior to enrollment. During the period prior to receiving clearance
for the criminal history check, the member must be accompanied by a covered employee.

       Excerpt/rom GPBCl AmeriCorps Policy and Procedllre Manllal:
       National Service Crimillal History Check
       Under the Serve America Act (SAA), all grantees must conduct National Service Criminal History
       checks on participants and program employees in AmeriCorps, Learn and Serve, Foster
       Grandparent, Senior Companion and any other programsfimded by the Corporation under
       National Service laws (Title 45 CFR Part 2540, Subpart B, Section 2540, 200-207).

       All employees, participants, and others who receive a salary, national service education award,
       living allowance, or stipend under Corporation grants, even if the activities don't involve service
       with vulnerable populations, mllst receive the checks prior to beginning employment or service.
       Summer a/service awards are not considered national service education awards. For the RSVP
       and VISTA programs, grantees are not required to conduct criminal history checks on their
       volunteers; however, RSVP and VISTA grantees are required to conduct criminal histo/y checks
       on all employees who receive part or all of their salmy from the respective program grant.

       Regulations have been in effect since November 2007 requiring checks on individuals in recurring
       contact with a vulnerable population, and expanded requirements went into effect on October I,
       2009, establishing coverage of all employees and participants, including those without contact
       with a vulnerable population.

       Beginning in April 21,2011, programs will also be required to conduct FBI background checks on
       covered individuals who will have recurring contact with vulnerable populations.

       I.       Sub-grantee agrees to search based on two (2) separate components of the criminal
                history check:
                     a. A search (by name or fingerprint) of the State criminal registry for the Stale in
                         which the program operates and the State in which the individual resides at the
                         time of application;
                     b. A National Sex OjJender Public Registry (NSOPR) check is an eligibility
                         requirement and must be completed prior to beginning of member contract.

       2.       Unless the COIporation approves an alternative screening protocol, in determining an
                individual's suitability to serve in a covered position, Sub-grantees are responsible for
                conducting and docu/Ilenting a National Service Criminal Histmy Check.

                    a.  An individual who refuses to consent to a State criminal registry check is not
                        eligible (0 serve. This was previollsly included in the preamble to the proposed
                        rule, but not in regulatory language.
                    b. No applicant may have unsupervised access to vulnerable individl/als (as
                        defined in the rule) until the results of his or her State criminal regisffy checks
                        have been reviewed and verified by the program.
                    c. Programs keep the actual results of the criminal history checks in the
                        participants 'files, unless prohibitedfi'oll1 doing so by State lmv, and document
                        in writing the consideration ofthe participant.
                Returning Members - Returning members in an AmeriCorps State program who have
                been checked through the State criminal registry, are returning to the same program and


                                                    5
               have no more than a Ihirty day break in service do not have 10 undergo a second State
               criminal history check.
               Consent - An individual who refuses to consent to a State criminal registlY check is
               not eligible to serve.
               Service without Clearance - No applicant may have unsupervised access to vulnerable
               individuals (as dejined in the rule) until the results of his or her State criminal registry
               checks have been reviewed and verified by the program.
               A program may aI/ow a member to begin their service but the following conditions must
               be met: A member may not have access to a vulnerable ben~ficiary without being
               accompanied by an authorized program representative who has been previously cleared
               to have sllch access.
               Disqualification - An individual who is subject to a State sex offender registration
               requirement is deemed unsuitable for, and may not serve in, a covered position. The
               disqualification includes individuals who are applicants for covered positions, as well
               as individuals who are currently serving with the organization in a covered position.
               An individual convicted of murder is deemed unsuitable for, and may not serve in, a
               covered position.
               Cost - CNCS considers the cost of a criminal history check a reasonable and necessary
               grant expense. Unless approved by CNCS. a Sub-grantee may not charge applicants for
               the cost of a criminal hisfOlY check.
               Maintenance of National Service Criminal Histmy Check Records - Programs keep the
               actllal results of the criminal histOlY checks in the participants' jiles. unless prohibited
               Fom doing so by State lmv. AmeriCorps State programs can maintain criminal history
               checks in a separate lockedjile.



Sc. Currently the GFBCI's policy and training practices dictate that the NSOPR check
must be completed prior to enrollment and the criminal history check must be initiated
prior to enrollment. During the period prior to receiving clearance for the criminal history
check, the member must be accompanied by a covered employee. This is reviewed
periodically through policy updates, quarterly trainings and will be reinforced at the
mandatory annual AmeriCorps Program Start-Up Training which occurs prior to the start
of the new program year. This is also reviewed during the fall when all programs receive
an on-site Module C- Member File Review Site Visit. For the City of Selma's 20
questioned files, all of the checks were conducted the day of enrollment just not prior to
enrollment. This procedure has been amended as a result of the audit. All information
pertaining to the member's NSOPR check and criminal history check must be maintained
in the member's file and is reviewed annually by a GFBCI staff member during the
Module C- Member File Review on-site visit.

Finding 5 (3)
Alternate background investigations were performed through the Board of Education
without prior written approval

Recommendation
We recommend that the Corporation
Sd. Ensure that the GFBCI strengthens the monitoring of its sub-grantees to verify that
prior written approval is obtained from the Corporation before an alternate criminal
background check protocol is implemented



                                                   6
GFBCI Response:
5d. The sub-grantee in question has been submitting the members' criminal history
checks through the Board of Education as a standard practice for many years. All of the
GFBCI's current sub-grantees, who are hosted through a local Board of Education, are
required to follow the system's practice of submitting checks through the State
Department of Education to the Alabama Bureau of Investigations (ABI) (the state
repository). While approval of an alternate search protocol was pending, the sub-grantee
continued to follow the standing program procedures. The GFBCI has worked diligently
to ensure that if a program is not directly utilizing the ABI (the state repository) for
criminal history checks that they request (via the GFBCI) to CNCS an approval for an
alternate search protocol. The GFBCI has established for all sub-grantees, excluding
school systems, an account to expedite submission of criminal history checks to AB!.

Finding 6
Timesheets do not reflect the required amount of service hours needed to earn an
education award

Recommendation
We recommend that the Corporation
6a. Resolve the questioned $4,725 education award for Grant No. 06AFHALOOl 0001

6b. Ensure the GFBCI strengthens the monitoring of its sub-grantees to determine that
member timesheets support the service hours reported in e-grants.

GFBCI Response
6a. The education award in question was for a member who hours fell short by 7.5
(1692.5 of the 1700 were properly documented). The program attempted to identify other
documents, such as sign-in sheets, to support the member's shortage of7.5 hours. The
sub-grantee was unable to do so. All other member hours served in this program were
verified.

6b. Computation of time logs is reinforced at the mandatory annual AmeriCorps Program
Start-Up Training which occurs prior to the start of the new program year. This is also
reviewed on-site during the fall when all programs receive a Module C- Member File
Review Site Visit. In addition, the GFBCI has implemented a grants management tool
called "My Service Log" which provides sub-grantees with a web based system that has
detailed member sheets. The sub-grantee with the member in question has had a change
in Program Director since the member whose education award is questioned served. The
GFBCI based on site reviews and compliance checks has a high level of confidence that
the program employs adequate checks and balances to reduce errors in member
timekeeping.

Finding 7
Federal Financial Reports were submitted late

Recommendation


                                            7
We recommend that the Corporation
7a. Ensure that the GFBCI submits its FFRs when they are due

GFBCI Response
7a. As the GFBCl's fiscal agent, the Alabama Department of Mental Health (ALDMH)
supports the GFBCI with numerous fiscal staff to allow for adequate internal controls and
separation of duties. The ALDMH submits all of the FFRs, once approved by the GFBCI.
Three ofthe 4 (of28 sampled) late submissions were 3 FFRs due on the same date that
were 3 days late and the fourth FFR report was 7 days late. The GFBCI recognizes and
continues to address coordination and communication with the fiscal agent on deadlines.
Since these dates were missed, the GFBCI and the ALDMH have worked to strengthen
the process for meeting the FFR deadlines. The GFBCI sends the electronic e-grants
reminder to the ALDMH point of contact and the ALDMH point of contact prepares the
reports and submits by the deadline. The GFBCI does not dispute this finding.




                                            8
         APPENDIX B

CORPORATION FOR NATIONAL AND
     COMMUNITY SERVICE

RESPONSE TO THE DRAFT REPORT
NATIONAL&
COMMUNITY -                   - -- - - --                               - - --                  -
SERVICE ............

         To:              S~feld, lnspecto~~ Audit
         From:         _ment
         Date:            JuneI7,~                                 ~
         Subject:         Response to OIG Draft of Agreed-Upon Procedures of Grants Awarded to the Alabama
                          Governor's Office of Faith-Based and Community Initiatives


         Thank you for the opportunity to review the Office of the Inspector General draft Agreed-Upon
         Procedures report of the Corporation's grants awarded to the Alabama Governor's Office of Faith-Based
         Community Initiatives (GFBCI). The Corporation reviewed the OIG report, met with the auditors and the
         grantee and reviewed the GFBCI draft response to the audit. We noted that the auditor included
         recommendations for the Corporation to recover match costs questioned without considering the facts that
         allowable alternative match was available or that match requirements were met at the aggregate level by
         the Commission. In the past OIG audits have taken the availability of alternative and aggregate match
         into consideration prior to making match cost recovery recommendations. Please note that we consider
         the more comprehensive review of match conducted in previous audits a more efficient use of resources.
         We are addressing all draft findings and recommendations at this time. We have reviewed a preliminary
         corrective ac;.tion plan from GFBCI. The plan adequately addresses the audit fmdings and we will work
         with GFBCI to ensure corrective action is implemented within 120 days of the final audit issue date.

         Finding 1 - A formalized cost allocation methodology of indirect costs claimed was not established and
         consistently implemented. Documentation was not available to support the allocation of indirect costs to
         each grant.

         Recommendation la: We recommend that the Corporation work with GFBCI to formalize its process
         for allocating indirect costs to the grants, and verify that controls are in place to ensure that costs are
         reasonable, equitable, allocable and properly documented. Consideration should also be given to
         implementing an approved indirect cost rate for future grants.

         Corporation Response: The Corporation is working with GFBCI to ensure it implements a Cost
         Allocation Plan and documents its cost allocation methodology for both direct and indirect costs in
         October 2011. The Corporation will ensure GFBCI's plan is designed to strengthen compliance. GFBCI
         is also considering implementing an approved indirect cost rate. (Open)

         Match Training Cost Incurred Was Not Properly Allocated.

         Recommendation Ib: We recommend that the Corporation resolve the questioned $85 in match costs .

         Corporation Response: The Corporation concurs with the finding and the costs are disallowed. GFBCI
         will include its methodology for allocating training costs in the Cost Allocation Plan. No debt results
         from the match as GFBCI met its match without the disallowed costs. (Action Complete)




                          Senior Corps      * AmeriCorps * Learn and Serve America
            1201 New York Avenue, NW      * Washington, DC 20~25 * 202-606-5000 * www.nationalservice.gov
Finding 2 - Documentation was not available to support in-kind match costs.

Recommendation 2: We recommend that the Corporation:

2a. Resolve the $25,018 in questioned match costs due to a lack of suppolting documentation.

2b. Work with GFBCI to ensure that its subgrantees' internal controls are strengthened to assure that
claimed in-kind match costs are supported with proper documentation.

Corporation Response: The Corporation agrees with the findings and recommendations. The
subgrantee did not provide the support to the auditors during field work when requested. After the exit
conference, the subgrantee provided the documentation to the auditors and to the Corporation. The
Corporation has reviewed the support for the selected transactions and found it adequate. The match costs
are allowed. However, the inability of the subgrantee to provide support in a timely manner is a
compliance matter which must be corrected. The GFBCI has determined the cause for the delay is now
requiring the subgrantee to submit supporting documentation with quarterly reimbursement requests.
(Action Completed)

Finding 3 - City of Selma used an incorrect mileage rate for travel reimbursements during 2010.

Recommendation 3: We recommend that the Corporation:

3a. Resolve the questioned $123 in Federal costs for Grant No. 09RFHALOOI and $39 in match costs
for Grant No. 06AFHALOOI.

3b. Ensure that GFBCI strengthens the monitoring of its subgrantees to ensure that subgrantees are
using the correct POV mileage reimbursement rate.

Corporation Response: The Corporation agrees and recommendations. The questioned costs are
disallowed. No debt results from disallowed match as GFBCI has sufficient alternative match. The
Corporation has verified that GFBCI has an internal process for reviewing mileage rates and that GFBCI
will ensure that changes to the Federal government's rate for mileage reimbursement are promptly
incorporated into its internal review process. (Action Completed)

Finding 4 - Member contracts did not specify whether the term of service was half-time or full-
time.

Recommendation 4: We recommend that the Corporation ensure that GFBCI strengthens the monitoring
of its sub grantees to ensure that member contracts address all significant issues, including type and term
ofservice(specifying half-time or full-time) and financial benefits.

Corporation Response: The Corporation agrees. As a result of the audit finding GFBCI implemented a
requirement that member contracts designate half-time or full-time status in June 2011. The Corporation
considers the GFBCI correction action adequate. (Action completed)




                                                    2
Finding 5 - Procedures were inadequate for conducting criminal background checks and searches
of the National Sex Offender Public Registry (NSOPR).

Recommendation 5: We recommend that the Corporation:

Sa. Ensure that GFBCI strengthens the monitoring of its sub grantees to determine that sub grantees
conduct NSOPR searches that include all 50 states prior to the member starting service.

5b. Resolve the questioned $1,560 in Federal costs and $516 in match costs for member living
allowances for Grant No. 06AFHALOOl, and $890 in Federal costs and $714 in match costs for Grant No.
09ACHALOOl for member living allowances.

5c. Ensure that GFBCI strengthens the monitoring of its subgrantees to ensure that NSOPR and State
criminal registry searches are conducted prior to members starting service. For members whose State
criminal registry checks are pending, GFBCI should work with its sub grantees to ensure that a program
official is present whenever such members interact with vulnerable populations and document that this
supervision was established. In addition, GFBCI should ensure that findings from criminal background
checks are considered, investigated, and the results should be documented to demonstrate compliance by
its subgrantees.

5d. Ensure that GFBCI strengthens the monitoring of its subgrantees to verify that prior written approval
is obtained from the Corporation before an alternate criminal background check protocol is implemented.

Corporation Response: The Corporation agrees that GFBCI did not follow appropriate procedures to
demonstrate compliance with requirements for criminal history checks. We are working with GFBCI to
ensure it revises its criminal history check policy to address the audit concerns in regards to monitoring
and training to strengthen compliance. Furthermore, the GFBCI must ensure that NSOPRs are
completed prior to enrollment and that criminal background checks are completed timely. However, the
Corporation takes exception to the auditor's assertion that Corporation regulations requiring the NSOPR
include results from all 50 states. The Federal regulations require that the NSOPR check be conducted.
The regulations do not require that system connectivity be functioning for all 50 states when the NSOPR
is conducted. CNCS takes its responsibility to safeguard vulnerable popUlations very seriously and
requires its grantees to fully comply with our current regulation, 45 C.F.R. §2540.203(B). We will
continue to work with our grantees and OIG to ensure safeguards are in place. (Open)

The Corporation verified that the two questioned members without criminal background checks resigned
from the program before the check was completed. The program followed regulations which require that
members be supervised until the state checks are completed. The members were supervised at all times
and had no access to vulnerable populations. Therefore, the $2,450 in Federal costs and $1,230 in match
costs are allowed. (Action Complete)

Finding 6 - Timesheets do not reflect the required amount of service hours needed to earn an
education award.

Recommendation 6: We recommend that the Corporation:

6a. Resolve the questioned $4,725 education award for Grant 06AFHALOO 1000 1.

6b. Ensure that GFBCI strengthens the monitoring of its sub grantees to determine that member
timesheets support the service hours reported in eGrants.


                                                     3
Corporation Response: The Corporation agrees one member out of all the members tested was 7.5
hours short of the required 1700 hours. GFBCI reviewed the circumstances resulting in the error and
determined it was a single instance of human error by program staff. The Corporation agrees with the
GFBCI determination and the limited audit findings confirm controls over member timekeeping are
effective. In these cases, the Corporation holds the member harmless and will require the GFBCI to
reimburse the National Service Trust for education award amounts accessed by the members which
exceed the pro rata amount of service actually performed by the members. The member has accessed the
full award. Under the CEO's authority to determine debts owed to the Corporation, the grantee must
repay the Trust for the amounts accessed in excess of awards earned. Therefore, the amount attributed the
7.5 hour shortage or $21 must be reimbursed to the Trust. (Action Complete)

Finding 7 - Federal Financial Reports were submitted late.

Recommendation 7: We recommend that the Corporation ensure that GFBCI submits its FFRs when
they are due.

Corporation Response: The Corporation agrees that four FFR reports were three to seven days late. In
response to the audit, GFBCI implemented and the Corporation verified procedures to send reminder
emails to sub grantees to ensure they submit their financial reimbursement requests in enough time to
allow GFBCI to submit timely. (Action Complete)

Summary: The Corporation will allow $2,450 and disallow $123 of the questioned Federal cost. We
will allow $26,248 and disallow $124 of the questioned match share. The Corporation considers the one
questioned education award of properly certified; however, we will require the program to reimburse the
Trust $21 to reflect a prorated award. Two of the seven of the internal control and compliance remain
open.




                                                   4
